Audit
Report
    CLOSING OVERAGE CONTRACTS PRIOR TO FIELDING A
        NEW DOD CONTRACTOR PAYMENT SYSTEM


Report No. D-2002-027                 December 19, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
ACO                   Administrative Contracting Officer
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
DPPS                  Defense Procurement Payment System
DRID                  Defense Reform Initiative Directive
FAR                   Federal Acquisition Regulation
IPT                   Integrated Process Team
MOCAS                 Mechanization of Contract Administration Services
MTAC                  MOCAS Transition Assistance Center
PCO                   Procuring Contracting Officer
                         Office of the Inspector General, DoD
Report No. D-2002-027                                                December 19, 2001
   (Project No. D2000FJ-0268)

             Closing Overage Contracts Prior to Fielding a New
                     DoD Contractor Payment System

                                Executive Summary

Introduction. DoD plans to transition from its present contract payment system, the
Mechanization of Contract Administration Services (MOCAS) system, to a new payment
system, the Defense Procurement Payment System, by October 2002. As of the end of
April 2001, there were about 324,000 contracts valued at $844 billion administered using
MOCAS. Of those contracts, 116,563 were open in MOCAS but eligible for closure (that
is, work was completed because goods and services were delivered and accepted).

The Federal Acquisition Regulation permits contracts to be eligible for closure from
6 to 36 months after work is completed, depending on the type of contract, before
categorizing them as overage. Of the contracts eligible for closure in MOCAS, at the end
of March 2001, DoD classified 22,628 as overage (that is, beyond the maximum time
allotted to close a contract). The contracts became overage over a period of 20 years,
between March 1981 and March 2001.

Objectives. The overall audit objective was to evaluate actions to close out completed
contracts and transition from the MOCAS system to its successor, the Defense
Procurement Payment System. We focused this part of the audit on the actions to close
out overage contracts.

Results. DoD made progress and closed about 30,393 overage contracts from February
2000 to March 2001. However, another 26,610 contracts became overage during that
period. Based on the closure rate overage contracts achieved during the February 2000 to
March 2001 period, we estimate that it will take at least 6 years for DoD to close all
remaining overage contracts. To accelerate the closure of contracts, additional actions
were needed. Our judgmental sample of 80 contracts showed that there were weaknesses
in the closure process, including inadequate monitoring of contracts that could be closed,
inattention to closure requirements, erroneous data about contracts available for closure,
lack of coordination, lack of sufficient funding, a shortage of personnel, and untimely
contractor input. Unless improvements are made and additional resources applied, DoD
will have a significant number of overage contracts when it begins the new payment
system, which could adversely affect its orderly transition. For details of audit results,
see the Finding section of the report.
Summary of Recommendations. We recommend that the Steering Committee,
consisting of the Under Secretary of Defense (Acquisition, Technology, and Logistics)
and the Under Secretary of Defense (Comptroller), establish a process to closely monitor
the progress of contract closures. We recommend that the Under Secretary of Defense
(Acquisition, Technology, and Logistics) determine the DoD acquisition staffing
requirements and, based upon identified needs, seek additional acquisition resources to
accelerate the closure of contracts. We recommend that the Director, Defense Contract
Management Agency, reiterate the policy that administrative contracting officers must
exercise their authority for unilateral rate determination to encourage vendors to fulfill
their responsibilities to submit final vouchers for payment.

Management Comments. The Director, Defense Procurement; the Deputy Chief
Financial Officer; and the Executive Director, Contract Management Operations, Defense
Contract Management Agency, concurred or partially concurred with the Finding and
recommendations and stated that recommended actions were in process. The Director,
Defense Procurement, and the Deputy Chief Financial Officer stated that impediments to
administrative closure were being identified and efforts to resolve them are ongoing. The
Executive Director, Contract Management Operations, Defense Contract Management
Agency, stated that monthly data were sent to the Services and other Working Group
members to take action toward contract closure. The Director, Defense Procurement,
also stated that developing an acquisition manpower strategic plan was a current
management initiative. Additionally, the Executive Director, Contract Management
Operations, Defense Contract Management Agency, stated that all Defense Contract
Management Agency offices were trained in the process of exercising authority on
unilateral rate determination. However, the Executive Director stated, “We take
exception to the comment that DCMA [Defense Contract Management Agency] has
inadequate monitoring of overage contracts and inattention to closeout timeframes.” See
the Finding section of the report for a discussion of management comments and the
Management Comments section for the complete text of the comments.

Audit Response. Comments to the recommendations from the Director, Defense
Procurement; the Deputy Chief Financial Officer; and the Executive Director, Contract
Management Operations, Defense Contract Management Agency on the draft of this
report were responsive and no additional comments are required.

Regarding the inadequate monitoring and inattention to closeout time frames, we did not
address that condition solely to the Defense Contract Management Agency. We observed
that DoD, as a whole, faced a challenge closing overage contracts. The challenge had
been created by multiple parties and will require the coordinated effort of multiple
parties, within and external to DoD, to resolve. The report did not state that Defense
Contract Management Agency was solely responsible for the quantity of overage
contracts. Additionally, the report recognized that Defense Contract Management
Agency had established performance goals to close overage contracts. The report states
the causes for those contracts becoming overage were multiple and multiple solutions to
resolving the contracts are needed.




                                            ii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                             1
     Objective                                                              2

Finding
     Controls Over Overage Contract Closure                                3


Appendixes
     A. Audit Process
           Scope and Methodology                                           16
           Management Control Program                                      17
           Summary of Prior Coverage                                       17
     B. October 2000 Overage Sample                                        18
     C. Report Distribution                                                22

Management Comments
     Under Secretary of Defense (Comptroller)                              25
     Under Secretary of Defense (Acquisition, Technology, and Logistics)   27
     Defense Contract Management Agency                                    30
Background
    Introduction. DoD procures a wide range of products and services from
    commercial sources and uses multiple systems to manage and pay for the products
    and services it buys. DoD planned to modernize and standardize its acquisition
    management and payment systems. As part of the modernization process, DoD is
    replacing its Mechanization of Contract Administration Services (MOCAS)
    system.

    MOCAS is an automated system used primarily by the Defense Contract
    Management Agency (DCMA) and the Defense Finance and Accounting Service
    (DFAS) to administer, pay, and close major DoD contracts. The system was
    developed in the early 1960’s as a batch processing system. It has been enhanced
    and modified over time to have an on-line capability and a data warehousing
    function. MOCAS was designed to comply with Federal and Defense contracting
    regulations and to decrease manual efforts by contracting personnel. It interfaces
    with some DoD activities’ logistics systems to update various logistics data. It is
    also used by DFAS to initiate the contract payment process. However, MOCAS
    is not used by most DoD activities to perform procurement functions and is not
    integrated with most of the DoD acquisition systems. Therefore, along with
    replacing the various acquisition systems used by the buying activities, DoD has
    decided to replace the MOCAS payment function with a single integrated system,
    the Defense Procurement Payment System.

    To support the replacement of MOCAS, the Deputy Secretary of Defense issued
    Defense Reform Initiative Directive (DRID) 53, “Reconciliation of Contracts in
    the Mechanization of Contract Administration Services (MOCAS) System,” on
    March 23, 2000. DRID 53 established a DoD-wide team to integrate and
    coordinate the reconciliation, closeout, and conversion of contracts from MOCAS
    to the replacement system. The team consists of the Military Departments, the
    Defense Logistics Agency (DLA), DFAS, and DCMA. Additionally, DRID 53
    directed the Military Departments and the DCMA to develop comprehensive
    plans for closing out all completed contracts, and the orderly transition from
    MOCAS to the replacement system for contracts with continuing requirements.
    One of the primary objectives expressed in the DRID was to retire MOCAS by
    October 1, 2002.

    To make the orderly transition from MOCAS to a new system easier and to
    minimize the transfer of information from MOCAS into the new system, DoD
    needed to close out as many contracts as possible. In particular, DoD needed to
    expeditiously close contracts that are overage (beyond the maximum time of 6 to
    36 months allotted to close a contract, depending on the type of contract).




                                         1
Objective
    The overall audit objective was to evaluate actions to close out completed
    contracts and transition from MOCAS to its successor, the Defense Procurement
    Payment System (DPPS). We focused this part of the audit on the actions to close
    out overage contracts. See Appendix A for a discussion of the audit scope and
    methodology.




                                       2
            Controls Over Overage Contract Closure
            DoD made progress and closed about 30,393 overage contracts from
            February 2000 to March 2001. However, another 26,610 contracts
            became overage during that period. Based on the net reductions to
            overage contracts achieved during the February 2000 to March 2001
            period, we estimate that it will take at least 6 years for DoD to close all
            remaining overage contracts. Review of 80 judgmentally selected
            contracts showed that there were weaknesses in the closure process,
            including inadequate monitoring of contracts that could be closed,
            inattention to closure requirements, erroneous data about contracts
            available for closure, lack of coordination, lack of sufficient funding, a
            shortage of personnel, and untimely contractor input. Unless
            improvements are made and additional resources applied, DoD will have a
            significant number of overage contracts when it begins the new payment
            system, which could adversely affect its orderly transition.

Contracting Policies
     Acquisitions of goods and services by the DoD are governed by public laws,
     including those set forth in congressional appropriations and in the Federal
     Acquisition Regulation (FAR). Appropriation laws govern the amount, purpose,
     and time frame for the use of money in the U.S. Government.

     The FAR establishes the rules for making acquisition agreements between
     contractors and the U.S. Government. The FAR governs who may take certain
     actions, when, and under what circumstances. The FAR also specifies when a
     contract should be closed and the records retired.

     Contract Closure Standards. FAR 4.804, “Closeout of Contract Files,” sets out
     specific time periods for closing contracts. The time period is based upon both
     the type of contract and the date of delivery of the goods and services, known as
     physical completion. Contracts not closed within the specified time frame are
     considered overage. As of the end of March 2001, DCMA identified
     22,628 contracts that were physically complete awaiting closure actions, but that
     were past the FAR time periods for closure.




                                         3
       The following table outlines the time standards in accordance with the FAR.


                        Time Standards for Contract Closure

             Contract Type                                 Time Period to Close

Contracts Using Simplified Acquisition          Evidence of Receipt and Final Payment

All Other Firm Fixed Price Contracts            6 Months

Cost Reimbursement Contracts                    36 Months

All Other Contract Types                        20 Months



       Overage Contracts. DCMA is responsible for identifying the reason physically
       completed contracts cannot be closed. DoD has established specific codes to
       identify those reasons. The codes are input in MOCAS by an Administrative
       Contracting Officer (ACO). ACOs are individuals employed by DCMA who
       have been delegated contract administrative functions by an originating
       procurement office.

       If a contract has been completed (that is, the goods and services have been
       satisfactorily delivered and accepted), but is not closed within the allotted time
       frame, the ACO is responsible for coding the MOCAS record with the reason the
       contract is overage. See Appendix B for a complete listing of overage reason
       codes.

Initiatives to Close Contracts
       In DRID 53, the Deputy Secretary of Defense emphasized to the department the
       closure of completed contracts by October 2002. The Deputy directed the
       Military Departments and the DCMA to develop comprehensive plans to close all
       completed contracts and to orderly transition to the new payment system, the
       DPPS.

       To execute the plan and enhance the closure of completed contracts, the Deputy
       Secretary directed the formation of an Integrated Process Team (IPT), co-chaired
       by the Principal Deputy Under Secretary of Defense (Acquisition, Technology,
       and Logistics) and the Principal Deputy Under Secretary of Defense
       (Comptroller). The IPT was directed to monitor and report the progress on the
       closeout and conversion of contracts.

       The IPT formed a working group, the DRID 53 Working Group, to accomplish
       the purposes of the DRID. The DRID 53 Working Group is co-chaired by
       DCMA and DFAS, but includes representatives from each Military Department,


                                            4
     the Defense Contract Audit Agency (DCAA), DCMA, DFAS, DLA, and two
     Offices of the Secretary of Defense; that is, Acquisition, Technology, and
     Logistics; and Comptroller.

     DCMA Actions. To assist the DRID 53 Working Group and DCMA activities
     with the closure and conversion of MOCAS contracts, DCMA formed the
     MOCAS Transition Assistance Center (MTAC). MTAC, via the DRID 53
     Working Group, also worked with the Services and DFAS to find solutions to
     transition challenges. MTAC has established web-based tools and information to
     assist in the closure of contracts. MTAC has also worked with DCMA activities
     to increase the rate of closure of MOCAS contracts. Furthermore, MTAC has
     worked with the 15 top DoD vendors with overage contracts awaiting final
     invoice to ensure the vendors were aware of the MOCAS transition and to enlist
     the vendors’ cooperation in closing contracts.

Assistance Center Actions
     In March 2000, MTAC analyzed information on the scope of work needed to
     deactivate MOCAS. MTAC found that, as of February 2000, MOCAS
     maintained an inventory of about 330,000 contracts. Over time, additional
     contracts would be added to the 330,000. The MTAC analysis showed that before
     the deactivation of MOCAS in October 2002, about 600,000 contracts would be
     available to be closed and about 30,000 would be candidates for transfer to the
     new payment system.

     MTAC projected that, of the 330,000 contracts then in MOCAS, about 152,000
     would be hard to close and would require labor intensive effort. MTAC projected
     that the more difficult to close contracts would include about 12,000 large
     contracts with values over $10 million; 121,000 contracts between 5 and 20 years
     old; and 19,000 contracts with labor intensive resolution issues (such as
     reconciliation, litigation, investigation, termination, and overhead issues). The
     other 178,000 contracts would be easy and low risk contracts to close. Those
     contracts tended to be closed automatically in MOCAS and required little manual
     effort.

     As a result of the MTAC effort, the DRID 53 Working Group, in an effort to
     reduce the number of contracts that would transfer and reduce their implications
     on transitioning to new systems, developed a strategy. The plan was to close as
     many contracts as possible in MOCAS.

     A year later, in February 2001, MTAC segregated the MOCAS inventory of
     contracts into clusters of responsibility for action to close the contracts. The
     responsible parties identified were DCAA, DCMA, DFAS, industry (vendors
     coordinating with DCMA or DFAS), and the buying activities (that is, the
     Services and DLA). The percentage of MOCAS contracts and the party
     responsible for actions contributing to the closing process, according to MOCAS
     coding, are shown in the following table.




                                         5
                Offices of Primary Responsibility for Contract Closure

                                   DCAA                  3%
                                  DCMA                  75%
                                   DFAS                 14%
                                INDUSTRY                 6%
                                 SERVICES                2%


    In March 2001, DCMA distributed the lists of contracts in each cluster to the
    responsible parties and action was initiated to increase the closure of contracts.


Audit Sample Results
    From February 2000 to March 2001, DCMA stated they had closed
    30,393 overage contracts. In February 2000, there were 26,411 overage contracts
    in MOCAS. By the end of March 2001, there were still 22,628 overage contracts
    reflected in MOCAS, even though 30,393 were closed during the period. This
    indicated that about 26,610 contracts became overage while contracts were being
    closed. It became evident that as overage contracts were closed, others became
    overage, thus reflecting the challenges and dynamics of the contract closure issue.

    We focused our audit on overage contracts to determine what factors affected
    reducing the balance of overage contracts. To review the actions taken by
    responsible parties to close overage contracts, we judgmentally selected
    80 contracts that were overage as of October 2000.

    Some contracts in our sample had been overage for many years. As an illustration
    of the delinquency of the contracts for closure, we reviewed one contract in the
    sample that went overage as far back as April 1987.

    We contacted personnel at Military Departments’ procurement offices, DCMA,
    DCAA, and DFAS, as appropriate, to determine the actions taken to close the
    overage contracts in the sample. See Appendix A for our judgmental sample
    selection methodology and Appendix B for a list of the acquisition actions in our
    sample.

    The audit showed that the process of closing and monitoring the closure of
    overage contracts needed improvement. For the 80 judgmentally selected overage
    contracts, there was inadequate monitoring of contracts that could be closed,
    inattention to closure requirements, erroneous data about contracts available for
    closure, lack of coordination, lack of sufficient funding, a shortage




                                          6
of personnel, and untimely contractor input. Many of the contracts in our sample
were affected by more than one of these problems, as shown in the following
table.

                 Problems Affecting the Closure of Contracts



       Lack of Attention:      14

               Erroneously in MOCAS (6 of 14)
       Data Quality Problems:        52

               Erroneous Overage Reason Code:        31

               Without Reason Code:                  12

               Erroneous Buying Activity:            7

               Erroneous ACO:                        2

       Lack of Coordination:         11

       Lack of Sufficient Funds:     13

       Shortage of Personnel:        80

       Untimely Vendor Input:        37



While not statistically projectable, our review of the 80 overage contract actions
indicated that DoD needed to focus additional attention on the overage contracts’
closure process.

        Attentiveness. For 14 contracts in the sample, no DoD procurement
official had focused on the contracts prior to our inquiry. The 14 contracts had
been overage from April 1987 to October 2000. Six of the 14 were not valid
contracts because they were either canceled (the procuring activity decided not to
make the acquisition) or else not complete (which generally means that the
contract was not signed by the potential vendor or the contracting officer). The
six were closed because we brought attention to them. Specifically, when we
distributed our list of contracts to DCAA, DCMA, and DFAS, either DCMA or
DFAS reviewed the sample, took action, and closed the six contracts in MOCAS.
One contract, N00140-92-DCE10/0014, which went overage in February 2000,
was coded as requiring an audit, but DCAA stated they did not have a record of it.
DCAA then contacted the vendor and the vendor indicated they did not have the
contract. DCMA was contacted and the contract was processed out of MOCAS.
However, in the 8 months prior to our inquiry, the contract had not been attended
to nor processed out of MOCAS. One contract, N00024-83-C4161, had gone
                                     7
overage in April 1987 awaiting a final invoice from the vendor. The action had
remained dormant.

         Data Quality. In our sample there were data quality issues for
52 contracts. Of the 52 contracts, 31 contracts reflected an erroneous reason code,
12 did not have a reason code assigned; 7 had the wrong buying activity code, and
2 had the wrong ACO code. For 7 of the 31 contracts (with erroneous reason
codes), the reason code used indicated the contracts were being reconciled by
DFAS. However, DFAS stated they were not in reconciliation. Additionally, for
contract N00421-89-C0128, the final DCAA audit report was issued in
April 2000, yet the action was still coded awaiting audit at the end of
October 2000. Also, this contract was in reconciliation at DFAS, but not coded as
such in MOCAS. For two of the seven contracts (with the wrong buying activity
code), the MOCAS data indicated that the responsible buying activity was one Air
Force activity. The contracts were actually handled by two other Air Force
activities. An example of the wrong ACO code was contract DAHC94-90-
D0012/2MF3. MOCAS records indicated the ACO was at Manassas, Virginia,
but the contract was really administered in Philadelphia, Pennsylvania.

Any database is only as good as the data input, the quality reviews performed, and
the use people make of the data. The errors we found were indicative of
inadequate actions for ensuring the quality of the data in the system and the
expeditious closure of contracts. Also, the errors resulted in misstating the
inventory of contracts requiring closure action. Further, relying on an erroneous
overage reason code would direct the contract requiring corrective action to the
wrong entity.

       Coordination and Communication. Eleven contracts in our sample of
overage contracts remained in MOCAS because of a lack of coordination and
communications among responsible parties. To initiate, administer, and close a
contract requires communications among many entities. Without appropriate
communication, issues become unresolved and the contract remains open.

Both DCMA and DFAS had access and used the same MOCAS database.
However, the communications capabilities of the access were not exploited.
When DCMA coded a contract as needing financial reconciliation, DFAS did not
access that coding and respond to it. In our sample, there were seven contracts
coded “P,” meaning they were overage because they needed financial
reconciliation. When we provided our sample to DFAS, to determine the actions
on the sample, DFAS responded that the seven sample contracts were not in
reconciliation and had not been at any time. DFAS stated that they did not
perform a reconciliation unless they received a DD Form 1797, “Request for
MOCAS Action/Information.”

However, two contracts that were being reconciled by DFAS at the time of our
sample selection were not coded in MOCAS to indicate the reconciliation was in
process, thus DCMA would not have known about the reconciliation. Solely
relying on a form that can be lost, misdirected, or not accomplished, when an
automated system is available, did not result in an efficient process or fully utilize
the potential of the system.


                                      8
        Funding Issues. Thirteen sample contracts had internal DoD funding
issues that were yet to be resolved. For these, the Services might need to obtain
additional funds from current year appropriations to resolve a contract. When we
selected our sample, we noted that the unliquidated balances recorded in MOCAS
may not necessarily reflect the amount of funds needed to close out the contract.
To illustrate, 6,658 of the 21,468 contracts coded as overage in MOCAS as of
October 2000 showed an unliquidated balance of zero to one dollar. The issues
related to these samples will be addressed in a subsequent report.

        Other Limiting Factors. Lack of personnel directly affected contracts
that were overage. Reviewing the staffing levels and work efficiency of the sites
we visited was not within the scope of our audit. However, the large workload,
lack of attentiveness, errors in data, and document handling problems are
indications from our review of personnel resource challenges.
For the overage contracts, records were lost, misplaced, or retired by the ACO,
Procuring Contracting Officer (PCO), or DFAS before closure of the contract
could occur in MOCAS. Discussions with PCOs and ACOs indicated that the
main reason for the document problems was lack of personnel, such as document
clerks. The entities stated that their support staff positions were eliminated and
contracting officer authorizations were reduced. As a result, the traditional
clerical functions were delegated to the remaining contracting personnel.

Also, the lack of storage space caused files to be temporarily stored off site, then
forgotten, misplaced, or disposed. Transfers of responsibilities for the contracts,
such as Defense facility consolidations or vendor headquarters’ moves caused the
change of the ACO and thus files were lost in the process of being transferred
(N00600-95-D1834/0012, and F04701-91-D0092/0055 were examples of this).
These challenges may be mitigated by such innovations as electronic documents
and an integrated acquisition system.

At each of the PCO and ACO offices we visited, the personnel told us that their
offices had inadequate staffing to meet the workload. At one DCMA office we
visited, personnel related that some of the ACOs were administering over
1,000 contracts each while their subordinates were administering over 500 each.

The adverse effects of workload and staffing imbalances were also reported
recently in DoD Inspector General Report No. D-2000-088, “DoD Acquisition
Workforce Reduction Trends and Impacts,” February 29, 2000. The report stated
that the DoD acquisition workforce had been reduced by about 50 percent;
however, the workload had not been proportionately reduced. The report did not
make specific recommendations, but it concluded:
           It is vitally important that the Department undertake and sustain
           intensive analytical efforts to acquire a better understanding of the
           human resources implications of its mission and process changes. The
           adverse consequences of the acquisition workforce reductions through
           FY 1999, as well as the prospect of massive losses of experienced
           personnel in the near future, make it imperative that the likely impact of
           further cuts be carefully assessed.



                                          9
From FY 1990 through FY 1999, the DoD acquisition workforce was reduced
from 460,516 to 230,556 personnel (about 50 percent). While the dollar volume
of DoD acquisitions decreased from about $144.7 billion to about $139.8 billion
(about 3 percent), the procurement actions increased from about 13.2 million to
14.8 million (about 12 percent). The greatest amount of work for acquisition
personnel occurs on contracting actions over $100,000, and the annual number of
those actions increased from 97,948 to 125,692 (about 28 percent). DCMA has
been reduced from 15,229 personnel in September 1997 to 11,755 in
December 2000, about 23 percent. For the same time period, the workload
decreased from 391,241 contracts to 309,208 or about 21 percent. An effect of
the disproportionate change in workload and workforce has been an increased
backlog in closing out completed contracts. We observed that human capital
issues increased the challenges to contract closure. We believe that DoD needs to
study its acquisition staffing requirements and, as needed, seek additional
acquisition resources for contract closure.

       Vendor Documentation. Vendors were not submitting required
documentation, primarily a final invoice, for overage contracts. For example,
contract number N00024-83-C4161 from our sample had been overage since
April 1987, because the vendor did not provide a final voucher.

As of October 2000, about 7,553 of the 21,468 overage contracts could not be
closed because the contracts were awaiting a final invoice from vendors for costs
incurred. Occasionally, the U.S. Government acquires goods and services that are
not commonly available or do not have established prices. For example, DoD
may contract for the technical review of manuals or for engineering support of
acoustical testing of ships’ hulls. For those instances, complex contracts that
reimburse the vendors for their costs, including indirect overhead costs, have been
developed.

FAR 52.216-7, “Allowable Cost and Payment,” reflects provisions on payments.
In order for a vendor to be reimbursed for its overhead costs, the vendor must
submit the costs (called an incurred cost proposal) within 6 months of the end of
the vendor’s fiscal year. The proposals are audited by DCAA to ensure the
proposals are appropriate. The last year after final delivery of the goods and
services is an important starting point. After the cost proposal is audited and
settled, the vendor is required by the FAR to submit a final invoice and release of
liability for the U.S. Government within 120 days of the date of settlement, even
if the invoice is for zero dollars. This final invoice indicates the end of the
contract and that the U.S. Government will no longer have a liability to the
vendor.

For buying actions involving cost reimbursement to the vendor, final overhead
rates are needed in order to make final payments to the vendor. DCMA analysis
for May 2001 indicated that about 16,000 contracts were complete and awaiting a
final invoice from the vendor. Another 8,000 were complete and awaiting final
indirect rate proposals.

ACOs told us that many vendors were in the same situation as Government
contracting offices. First, there was a low priority to close contracts. The
emphasis was on new work. Second, many vendors were encountering difficulty

                                    10
    obtaining and retaining qualified contract administration and financial personnel.
    However, unlike the DoD, there was a third factor. Generally the contractors had
    received a satisfactory quantity of payments. DoD had disbursed as much of the
    obligations for the contracts as possible, to avoid the expiration of the
    appropriation of funds. If funds expiration was approaching, vendors were
    encouraged to submit interim invoices that equated to almost all of the obligated
    funds. Thus, the vendors had already received most of the obligated funds. For
    example, eight contracts in the sample were coded awaiting vendors’ final
    invoice, but had less than $2 available to obligate for additional invoices from
    vendors. An additional and final invoice to DoD would cost the vendor further
    time and money. As a result, the vendors had little incentive to invoice DoD.

            Indirect Cost Rates. For cost reimbursable contracts, the FAR provides
    the contracting officer or ACO an option to encourage nonresponsive vendors to
    comply with FAR provisions. FAR 42.703-2, “Certificate of Indirect Costs,”
    allows the contracting officer to unilaterally establish indirect cost rates. For two
    of our sample, when the ACOs were unable to obtain acceptable rates from the
    vendor, each ACO took action to resolve the challenges. For buying action
    N00244-95-D5092/L602, the ACO and the vendor were negotiating the rates. For
    buying action N00600-95-D0269/0008, the ACO applied FAR 42.703-2, which
    allowed the ACO to determine the overhead rates, based upon the best judgment
    of the ACO. This option, however, would require additional administrative time
    and effort. We believe ACOs need to be encouraged to exercise their authority
    for unilateral rate determination to encourage vendors to cooperate.

Contract Closure Monitoring
    DCMA initiated distribution of the lists of contracts in each cluster to the
    responsible parties in March 2001. However, the information provided to the
    responsible parties did not include a feedback mechanism. The initiative by
    MTAC to cluster contracts into areas of responsibility is a good first step.
    However, in our sample, 13 contracts were closed because we brought attention to
    them. For example, the six actions in MOCAS that were not contracts were
    closed when attention was drawn to them.

    Coordination and Communications Initiative. The March 2001 DCMA
    initiative to sort MOCAS data into clusters of responsibility was an effort to
    enhance communications and improve MOCAS data. The responsible entities
    will need to act upon the data.

    As of May 2001, the Services had not distributed the information within their
    organizations or otherwise acted upon the lists of contracts provided. The
    responsible entities need to review the list of contracts provided to them and
    verify the provided data. Further, the parties need to either take the actions
    required to close the contracts or, if the actions are not within their incumbencies
    and capabilities, forward, through the working group, the contracts to the
    appropriate entity.

    Action Feedback. Feedback for any initiative is vital to ensuring goal
    attainment. In addition to distributing a list of contracts to the responsible

                                          11
    activities, the working group needs to periodically receive feedback from them on
    their actions to close the contracts. The feedback should include the actions
    taken, whether there are any challenges to closure, and what actions have been
    taken to resolve the challenges.

Future Overage Contracts
    Unless increased efforts are made, DoD will have a significant number of overage
    contracts when it begins the transfer to the new payment system, which could
    adversely affect an orderly transition to the new DPPS. As of April 2001, DoD
    still had about 22,628 overage contracts in MOCAS. We estimate there will be
    about 22,000 overage in September 2002. These could require at least 6 years to
    close.

    The number of overage contracts varies from month to month. As some contracts
    are closed, others become overage. In some months, more contracts are closed
    than become overage, such as in March 2000 when a net of 963 more were closed
    than became overage. However, in some months, more become overage than
    closed, such as November 1999 when a net of 1,172 became overage. DCMA
    estimated that about 33 more per month will close than become overage between
    May 2001 and September 2002. With that rate of closure, there will be about
    22,067 overage contracts in September 2002.

    We believe that regardless of what procurement management and payment
    systems DoD uses, contracts will continue to become overage. With an inventory
    of 22,000 overage contracts to close at October 2002, DoD faces a future years
    challenge. The inventory of overage contracts decreased from 26,411 in February
    2000 to 22,628 in March 2001, a net decrease rate of 291 a month. If the DoD net
    closure rate were a net of 291 per month, it would still take about 6 additional
    years to close the 22,000 contracts.

Summary
    From February 2000 to March 2001, DCMA acknowledged they had closed
    30,393 overage contracts. In February 2000, there were 26,411 overage contracts
    in MOCAS. By the end of March 2001, there were still 22,628 overage contracts
    reflected in MOCAS, even though 30,393 were closed during the period. As
    overage contracts were closed, others became overaged.

    DoD is attempting to have all overage contracts reflected in MOCAS closed by
    October 2002. The DCMA cluster concept is a good step toward improving
    closure results. Responsible parties need to take the appropriate actions to close
    overage contracts in MOCAS. However, an adequate monitoring system, which
    includes data quality reviews by the responsible parties, and reporting periodically
    the status of actions taken, could improve the effort to close MOCAS. The
    monitoring system will assist the IPT with its mission of monitoring and reporting
    the progress on the closeout and conversion of contracts. Human resource issues
    have hampered past contract closures and will continue to have a slowing effect


                                        12
    without future actions for a resolution. Further, vendor responsiveness can still
    hamper efforts to meet DoD closure expectations without action to encourage
    vendors’ cooperation.



Management Comments on the Finding and Audit Response
    Management Comments. The Executive Director, Contract Management
    Operations, Defense Contract Management Agency, partially concurred with the
    finding. The Director stated that DCMA takes exception to the comment that
    DCMA has inadequate monitoring of overage contracts and inattention to
    closeout time frames. The Director stated that DCMA believes it adequately
    monitors overage contracts. The Director pointed out that DCMA had established
    performance goals that included reviews of overage contracts by DCMA on a
    monthly basis at the local, district, and agency levels.

    Audit Response. We did not direct the finding to any particular DoD component.
    DoD faces a challenge closing overage contracts. The challenge requires the
    coordinated effort of multiple parties, both within and external to DoD, to resolve.
    The report did not state that DCMA was solely responsible for the quantity of
    overage contracts. Additionally, the report recognized that DCMA had
    established performance goals to close overage contracts. DoD had a significant
    quantity of overage contracts. This report shows that the causes for those
    contracts becoming overage were multiple and multiple solutions to resolving the
    contracts will be required.




                                        13
Recommendations, Management Comments, and Audit
  Response
    1. The Steering Committee, which consists of the Under Secretary of Defense
    (Acquisition, Technology, and Logistics) and the Under Secretary of Defense
    (Comptroller), should develop a process to regularly evaluate the progress in
    accomplishing the goals of Defense Reform Initiative Directive 53. The
    process should include:

                 a. A methodology for the Services and Defense agencies, upon
    receipt of a listing of contracts from the Defense Reform Initiative Directive
    53 working group, to either take the action required to close each contract
    or, if, after verifying the data provided, the actions are not within their
    responsibilities and capabilities, forward, through the working group, the
    contract to the appropriate entity for action.

                b. A reporting process that will periodically provide information
    to the Steering Committee and the working group on each contract. The
    reporting process should specifically address records disposition and storage
    issues, include the actions taken to close the contracts, whether there are any
    other challenges to closure, and what actions have been taken to resolve the
    challenges.

    Under Secretary of Defense (Acquisition, Technology, and Logistics) and
    Under Secretary of Defense (Comptroller) Comments. The Director, Defense
    Procurement, and Deputy Chief Financial Officer concurred with the
    recommendations and stated that the recommended actions were in process.
    Specifically, impediments to administrative closure are being identified and
    efforts to resolve them are ongoing. Also, reporting by the Military Departments
    and Defense agencies to the working group is expected to be formalized in the
    near future. Summary information will be presented to the Steering Committee
    periodically.

    Defense Contract Management Agency Comments. The Executive Director,
    Contract Management Operations, Defense Contract Management Agency,
    concurred with the recommendations and stated the recommended actions had
    been implemented. Monthly data are sent to the Services, DCAA, and DFAS
    Working Group members to take action to move contracts towards closure. The
    Executive Director also stated that summary information, representing a roll-up of
    individual contract status, was periodically provided to the Steering Committee.
    The Executive Director expressed concern with the cost effectiveness of
    providing information on over 300,000 contracts in the MOCAS system.

    Audit Response. The comments satisfy the intent of the recommendations.
    However, the Executive Director misinterpreted the intent of our recommendation
    to provide summary information. The recommendations address the need for
    providing information to the Steering Committee and the working group on

                                        14
overage contracts only, not on the entire universe of contracts in the MOCAS
system. No further comments are required.

2. The Under Secretary of Defense (Acquisition, Technology, and Logistics)
should study the DoD acquisition staffing requirements and, based upon
identified needs, seek additional acquisition resources.

Under Secretary of Defense (Acquisition, Technology, and Logistics)
Comments. The Director, Defense Procurement, concurred with the
recommendation. The Director stated that one of the goals of the Under Secretary
of Defense (Acquisition, Technology, and Logistics) is to revitalize the quality
and morale of the acquisition workforce. The Director also stated that developing
an acquisition manpower strategic plan was a current management initiative.
Defense Contract Management Agency Comments. Although not required to
comment, the Executive Director, Contract Management Operations, Defense
Contract Management Agency, agreed that there was a need to add additional
resources at specific sites.

3. The Director, Defense Contract Management Agency, should institute a
program to encourage administrative contracting officers to exercise their
authority for unilateral rate determination to encourage vendors to fulfill
their responsibilities.

Management Comments. The Executive Director, Contract Management
Operations, Defense Contract Management Agency, concurred with the
recommendation and stated that a process had been implemented to obtain timely
submission of final indirect rate proposals. The Executive Director stated that all
DCMA offices were trained in the process of exercising authority on unilateral
rate determination.




                                    15
Appendix A. Audit Process

Scope and Methodology
    We concentrated our audit effort on the 21,468 contracts that were coded as
    overage for closure in MOCAS as of October 13, 2000. To determine the actions
    undertaken to close overage contracts, we judgmentally selected a total of
    80 contracts coded as overage in MOCAS. We selected 20 contracts for each
    Service (a total of 60 contracts) based upon geographic areas with a large volume
    of overage contracts. MOCAS data indicated geographic areas with large
    quantities of overage contracts were Los Angeles and San Diego, California;
    Washington, D.C.; Dayton, Ohio; and Huntsville, Alabama. We also selected
    10 contracts at the DLA supply center at Columbus, Ohio. In addition, we
    selected a sample of 10 overage contracts coded as awaiting an audit, which we
    provided to DCAA to determine the actions on those contracts. Overall our
    sample was a judgmental sample; however, we used random techniques to select
    individual contracts at buying activities within the geographic areas. We also
    visited the buying activities and inquired on actions to close the sample contracts.
    We visited DCMA offices in those geographic areas responsible for
    administration of contracts in our sample and inquired into actions to close the
    contracts.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from August 2000 through May 2001 in accordance with generally accepted
    government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the DFAS Shared Data Warehouse of MOCAS data to determine the activities to
    visit and to determine audit sample selection. Although we did not perform a
    formal reliability assessment of the computer-processed data, we determined that
    the data reviewed were reasonably accurate with minor discrepancies. We did not
    find errors that would preclude use of the computer-processed data to meet the
    audit objective or that would change the conclusions in this report.

    Contacts During the Audit. We visited or contacted individuals or organizations
    within DoD. Further details are available on request.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DOD contract management, strategic human capital management, and
    financial management high-risk areas.

Management Control Program Review
    DoD Directive 5010.28, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive

                                         16
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We did not perform a
    full review of the adequacy of DoD controls over the closure of overage contracts.
    DoD has repeatedly reported systemic weaknesses in its financial management
    processes and systems. The DoD Statement of Assurance reported “the
    Department’s accounting, finance, and feeder systems do not fully comply with
    Federal financial management systems requirements.” MOCAS is among those
    systems used by DoD for financial related operations. Also, DoD has reported
    under its acquisition process and systems, weaknesses in acquisitions, but did not
    specifically identify weaknesses in its contract closure processes.

Prior Audit Coverage
    There has been no audit coverage on the subject of contract closure in the past
    5 years. However, a related report, DoD Inspector General Report No. D-2000-
    088, "DoD Acquisition Workforce Reduction Trends and Impacts," February 29,
    2000, addressed the reduction of acquisition resources.




                                        17
Appendix B. October 2000 Overage Sample
                                                                            Overage
                                                                Date        Reason
   PIIN                     SPIIN     CAO                       Overage     Code

   Army, Washington, DC

   DAHC9496D0003              0050    Philadelphia               11/30/99      A
   DAHC9490D0012             2MF3     Manassas                    3/31/00      W
   DAHC9496D0003              0054    Philadelphia                9/30/00      A
   MDA90392D0084              0004    Manassas                   12/31/96      1
   MDA90389C0050                      San Diego                   4/30/98      P
   MDA90392D0103              0012    Manassas                    3/31/99      P
   MDA90392D0058              0028    Manassas                    6/30/99      M
   DASW0196D0030              0002    Manassas                    6/30/00      P
   MDA90391D0061              0279    Manassas                    7/31/00      M
   MDA90393D0020              0056    San Diego                  10/31/00

   Army, Huntsville, AL

   DAAJ0987GA012              0021    Phoenix                     8/31/99      P
   DAAJ0986CA013                      Phoenix                    11/30/99      H
   DAAJ0996L0006                      Bell Helicopter Textron     4/30/00
   DAAH2398D0102              0012    Phoenix                    10/31/00
   DAAH0184C0974                      Manassas                    7/31/93      S
   DAAH0192CR303                      DB Boston                   4/30/98      M
   DAAH0193CR182                      Manchester                  3/31/99      1
   DAAH0193DR005              0061    Birmingham                  2/29/00      A
   DAAH0189C0370                      Lockheed Martin Orlando     7/31/00
   DAAH0185EA001                      Lockheed Martin Orlando     9/30/00

   Navy, Washington, DC

   N0001489C2055                      Lockheed Martin Orlando     7/31/00
   N0002483C4161                      Manassas                    4/30/87      A
   N0014092DAE05              EHQ6    Norfolk                     2/28/98      M
   N0016793D0066               0026   Manassas                   10/31/99      H
   N0016794D0007               0016   Baltimore                   9/30/00      A
   N0060088D3717              FG4P    Manassas                   10/31/98      A
   N0060090D2889               0038   Manassas                   10/31/96      H
   N0060095C3233                      Baltimore                   6/30/99      A
   N0060095D1834               0012   Manassas                    1/31/00      A
   N0060095D0269               0008   Manassas                    4/30/00      A

   Note: See the list of acronyms at the end of the appendix




                                              18
                                                                          Overage
                                                            Date          Reason
PIIN                      SPIIN    CAO                      Overage       Code

Navy, San Diego, CA

N6600187D0054               0011   Manassas                    3/31/93       A
N0012392D5252              3ELF    Baltimore                    9/30/97      N
N0012392D5465               4F89   Norfolk                     8/31/98       A
N0012392D0253              L66U    Manassas                     3/31/99      A
N0012392D5465              7N88    Norfolk                    10/31/99       A
N0003996D0074               0037   Manassas                    7/31/00       M
N0024495D5093              7N14    Baltimore                   7/31/99       A
N0024495D5001              7N95    Baltimore                   1/31/00       A
N0024495D5001              7N96    Baltimore                   4/30/00       A
N0024495D5092              L602    Twin Cities                 9/30/00

Air Force, Dayton, OH

F3365781C0324                      San Francisco             3/31/97         7
F3365787C2122                      Northrop Grumman          3/31/99         P
                                    Baltimore
F3365792D0034              0021    Dayton                    6/30/00         H
F3365795D2018              0032    Dayton                    9/30/00
F3361586C1121                      Lockheed Martin-Ft Worth 10/31/93         N
F3361586C0552                      Manassas                  5/31/98         M
F3361593D5302              0018    Manassas                  7/31/99         M
F3361590D4010              0024    Manassas                 11/30/99         A
F3361593C3400                      Boeing-St. Louis          3/31/00         A
F3361595D5615              0001    San Diego                 8/31/00         A

Air Force, Los Angeles, CA

F0470180C0045                      San Francisco             11/30/93       H
F0470182C0052                      Van Nuys                   4/30/96     ASD
F0470171C0139                      Raytheon-Tucson            8/31/97       P
F0470195D0002              0023    Manassas                   2/28/98       A
F0470191D0092              0055    Manassas                   7/31/98       A
F0470185C0069                      Boeing Space & Com         3/31/99       Y
                                     Seal Beach
F0470190C0031                      Manassas                   7/31/99        M
F0470195D0003              0021    Manassas                  10/31/99        H
F0470195D0002              0013    Manassas                   3/31/00        A
F0470195D0002              0001    Manassas                   7/31/00        A

Note: See the list of acronyms at the end of the appendix




                                           19
                                                                           Overage
                                                            Date           Reason
PIIN                     SPIIN     CAO                      Overage        Code

Defense Logistics Agency, Columbus, OH

F4260096G0001           UBTF       Lockheed Martin-Ft Worth 9/30/99            W
SP075094M2911                      Santa Ana                 2/29/00           W
DLA75091D3001                      Denver                    5/31/00           P
SP074099MQQ95                      Van Nuys                  7/31/00
SP074099MQW27                      Orlando                   8/31/00
SP070099D9714              0001    Seattle                   9/30/00           A
SP076000M4696                      St. Petersburg           10/31/00
DLA90093MDP25                      Santa Ana                 5/31/96           W
DLA90089D2023               0007   Chicago                  10/31/98           1
DLA90088P1635                      Baltimore                10/31/00

Defense Contract Audit Agency

DAAB0791DF005               0028   General Dynamics Gov. Sys    8/31/00        H
DAAJ0993D0065               0020   Birmingham                   7/31/99        H
N0014092DCE10               0014   Atlanta                       2/29/00       H
MDA90392D0010               0028   Manassas                     6/30/00        H
N0038389D4264               0002   Orlando                     10/31/99        H
N0060093D2258               0003   Baltimore                     3/31/98       H
N0042189C0128                      Baltimore                     5/31/97       H
N6660492D0692               0043   Baltimore                     9/30/00       H
N0003991C0066                      Manassas                    12/31/98        H
F336158D0664                0009   Manassas                     3/31/94        H


Note: See the list of acronyms at the end of the appendix




                                           20
                   Definitions for October 2000 Overage Sample Table
Procurement Instrument Identification Number (PIIN)        Contract Number

Supplemental Procurement Instrument
Identification Number (SPIIN)                              Order Number

Contract Administrative Office (CAO)                       Name of Contract Management Office
                                                           (CMO) or formally referred to as CAOs

Overage Date                                               Date Contract is Overage for
                                                           Closeout in MOCAS

Overage Reason Code:

        A:      Contractor has not submitted final invoices/voucher
        B:      Final acceptance has not been received
        C:      Contractor has not submitted patent/royalty report
        D:      Patent/Royalty clearance required
        E:      Contractor has not submitted proposal for final price redetermination
        F:      Supplemental Agreement covering final price redetermination is required
        G:      Settlement of subcontract required
        H:      Final audits in process
        J:      Disallowed cost pending
        K:      Final audit of Government property pending
        L:      Independent research and development rates pending
        M:      Negotiation of overhead rates pending
        N:      Additional funds required but not yet received (underfunded)
        P:      Reconciliation with paying office and contractor being accomplished
        Q:      Armed Services Board of Contract Appeals Case
        R:      Public Law 85-804 case
        S:      Litigation/investigation pending
        T:      Termination in process
        U:      Warranty clause action pending
        V:      Disposition of Government property pending
        W:      Contract modification pending
        X:      Contract release and assignment pending
        Y:      Awaiting notice of final payment
        Z:      Disposition of classified material pending
        1:      Replacement funds required to complete closeout
        2:      Appropriations in the red
        3:      Prevalidation pending
        4:      Reserved
        5:      Reserved
        6:      Fee withheld
        7:      Awaiting removal of excess funds
        8:      Reserved
        9:      Reserved




                                        21
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director of Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
     Director for Accounting Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service




                                          22
Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                          23
Under Secretary of Defense (Comptroller)
Comments




                   25
26
Under Secretary of Defense (Acquisition, Technology
and Logistics) Comments




                         27
28
29
Defense Contract Management Agency
Comments




                     30
31
32
33
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector, DoD, who contributed to the report are listed below.

     Paul J. Granetto
     Richard B. Bird
     James L. Kornides
     John K. Issel
     Terry D. Holdren
     Lisa C. Rose-Pressley
     Karen M. Bennett
